               UNITED STATES DEPARTMENT OF EDUCATION
                         OFFICE OF THE INSPECTOR GENERAL




May 11, 2004

INSPECTION MEMORANDUM

To:           Phil Maestri
              Director, Management Improvement Team
              Office of Deputy Secretary

From:         Cathy H. Lewis
              Assistant Inspector General
              Evaluation, Inspection and Management Services

Subject:      Review of Blueprint for Management Excellence item number
              219 (ED/OIG I13D0025)

This memorandum provides the results of our inspection of three Action Items
from the Department of Education’s (Department’s) Blueprint for Management
Excellence. We are examining several Action Items related to Human Capital.
Our objective is two-fold: 1) to determine if the item was completed as described;
and, 2) as completed, does the action taken help the Department towards its
stated Blueprint objective. In this report, we examined item Number 219
concerning the implementation of training to support the effective use of
Individual Development Plans (IDPs).

Background:

The Department’s One-ED Report recommends, “all employees have an
Individual Development Plan linked to the performance appraisal process.” It
further states the IDP effort will be supported by providing training to employees
and supervisors.

The Department has maintained an IDP program for several years. Both the
Management Improvement Team (MIT) and the Training and Development
Center (TDC) staff told us the primary reason for implementing this action step
was to better link training to the Department’s plans, priorities and skill gaps, as
well as to increase employee participation in the IDP program. The previous IDP
program did not collect data that would enable managers to know whether or not
employees were taking the correct type of training to ensure that needed skill
sets were being added to their offices.

The action required by Action Item 219 was to:


                                         1
“Implement training to support effective use of Individualized Development
Plans.”

The comments field on this item states, “Completed 3/31/03—IDP instructions
issued and training offered on-line.”

Objective 1: Did OM complete the actions needed to complete this item?

OM developed training for Individualized Development Plans. However, the only
training currently available for the IDP program is the video and PowerPoint
slideshow located on the ConnectED site.

Objective 2: Did the actions completed meet the objective “To improve the
strategic management of the Department’s human capital?”

Training was developed; however, it is not sufficient to encourage the effective
use of IDPs by employees and managers. The current presentation does not
focus on how the IDP should be created and maintained, nor does it encourage
managers to motivate their employees to create IDPs. Likewise, we found no
training that would show an employee the value of creating and maintaining an
IDP for themselves. There are no courses, Department or contractor operated,
currently planned to train managers or employees on the effective use of
Individualized Development Plans. When the Department was tracking how
many employees had IDPs in place when GPAS was in use, only 23% had
completed them; however, since the inception of EDPAS, no data is available.

As part of our inspection we surveyed the Department’s Executive Officers who
made the following observations when asked what could be done to make the
IDP Program more effective:

The IDP program is supported; however, in its present form it is not seen as an
instrument that will enhance Department effectiveness.

IDP program is inadequately advertised and lacks focus.

Training is largely unfunded; the perception is that creating an IDP is a waste of
time because there are insufficient funds to attend training.

The current IDP program is not user-friendly; therefore, employees are less likely
to use it.

TDC currently has no automated system in place to make creating, tracking,
updating, or modifying the IDP simple and easy.




                                         2
The IDP is not flexible enough to handle quick notice training. The current IDP
inherently places an employee on a specific training path for a period of at least
one year. While we understand the usefulness of a training path, the perception
is that employees are obligated to complete training in their IDP even though
more recently found, better suited, and more appropriate training is found to be
available. Creating a flexible, easy-to-use IDP would reduce or eliminate this
concern.

There is a perception that since IDPs are not mandatory, they are not important
to senior management.

Recommendations:

The Executive Management Team (EMT) should direct OM to revisit the IDP
Program to determine if the current training adequately meets customer needs.

OM should complete efforts to establish a tracking system that will help
management better understand what training is required for employees.

OM should conduct an analysis to determine and understand the barriers from
the vantage point of managers and employees to the effective use of this
program (e.g., the insufficiency of training funds; the inflexibility of the current
system).

Department Response

We provided the MIT with a draft report. We inserted applicable portions of the
Department’s comments after each recommendation and included them in their
entirety as an attachment.

Recommendation 1: “The Executive Management Team (EMT) should direct
OM to revisit the IDP Program to determine if the current training adequately
meets customer needs.”

The MIT response stated, “It is likely that the lack of impact of last year’s IDP
training is related more to the prevailing attitudes about IDPs and developmental
opportunities than to the IDP training itself. Therefore, we suggest that the OIG
recommendation be worded so that OM can respond with a strategy to
encourage employee participation in training that is integrated with an overall
plan to improve skill development opportunities at ED. Focusing on the
participation in the IDP process and the IDP training is probably not going to
have much of an impact on increasing participation in developmental activities or
employee skill levels.”




                                           3
IG Response: The recommendation as written places the proper emphasis on
the EMT and its role in monitoring/guiding the IDP process. The
recommendation is broad enough to allow for exactly what the Department has
requested to do, “that the OIG recommendation be worded so that OM can
respond with a strategy to encourage employee participation in training
that is integrated with an overall plan to improve skill development
opportunities at ED.” Our recommendation, as currently worded, in no way
prohibits the EMT or HR from developing a strategy to encourage employee
participation.

We have not modified our recommendation.

Recommendation 2: “OM should complete efforts to establish a tracking system
that will help management better understand what training is required for
employees.”

The MIT response stated, “HRS intends to complete the tracking system to
provide information on skill gaps and the types of training that employees have
requested on IDPs.”

We have not modified our recommendation.

Recommendation 3: “OM should conduct an analysis to determine and
understand the barriers from the vantage point of managers and employees to
the effective use of this program (e.g., the insufficiency of training funds; the
inflexibility of the current system).”

The MIT response stated, “The implementation of the HRS plan for the ESIS and
integrated IDPs is a new strategy for IDPs. OM plans to investigate the barriers
to participation in IDPs and other components of ESIS at an appropriate time
following the implementation of the new approach. HRS staff will solicit feedback
on barriers to using IDPs and incorporate what they learn in future training and
communications. Such follow-up will be part of a single plan that addresses this
and the first recommendation. Whether funding for training is a barrier to
employee skill development is a separate issue that is not within the scope of the
ESIS-related work HRS has planned.

IG response: We believe funding is a vital part of any plan you intend to
implement. If funding is not part of the above mentioned ESIS-related work that
HRS has planned, then it should be addressed in an equally important avenue as
this mentioned initiative.

We have not modified our recommendation.

This inspection was performed in accordance with the President’s Council on
Integrity and Efficiency (PCIE) Quality Standards for Inspections (1993).


                                         4
We appreciate the cooperation given to us during the inspection.




                                       5
                                    March 16, 2004



To:        Cathy H. Lewis
           Assistant Inspector General
           Evaluation, Inspection and Management Services

From:      Phillip Maestri, Director
           Management Improvement Team

Subject:   Draft Inspection Memorandum (2/10/04)
           Review of MIT Action Item Number 219 (ED/OIG I13D0025)
           “Implement training to support effective use of Individualized
           Development Plans.”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Comments on Background and Findings

As OIG found, the Training and Development Center (TDC) made training on how to
develop and use Individual Development Plans (IDPs) available to all employees through
the intranet in March 2003. Based on further investigation conducted by the Human
Resource Service (HRS), the MIT also finds that participation in IDP program is low
despite the efforts last year to promote the program.

OIG’s draft memo further concluded, “the only training currently available for the IDP
program is the video and PowerPoint slideshow on the ConnectED site.” However, the
Human Resource Service (HRS) reports that there is additional assistance available. In
the “IDP Frequently Asked Questions” document, which is on ConnectED, the answer to
“Will training be available?” states that training sessions are available for groups. The
answer to “If I need help creating an IDP, where can I get assistance?” gives individuals
a contact name and phone number. According to HRS, between April and December
2003, 26 individual sessions were conducted to help employees with IDPs. IDP training
sessions were presented for four groups (serving 47 employees) between May and
November 2003. TDC counselors in the Atlanta, Chicago, and San Francisco regional
offices have conducted ten individual assistance sessions and seven group sessions
(serving 95 employees) since April 2003.

Furthermore, OIG’s draft memo concludes that the training does not “focus on how IDPs
should be created and maintained, nor does it encourage managers to motivate their



                                           6
employees to created IDPs… or show the value of creating an IDP.” However, the
release of this training was accompanied by a memo to all employees that:

       Addressed why IDPs are important—for both individual skill development and
       aligning learning to Department’s goals.
       “Strongly encouraged” all employees to develop an IDP.
       Mentioned the benefits for employees—providing an opportunity to enhance
       current job performance and achieve career goals.
       Mentioned the benefits for supervisions—planning and resource allocation to
       ensure employees can complete developmental activities.

The “Frequently Asked Questions” section of the ConnectED IDP site further promotes
this message:

       “Employees are strongly encouraged to develop an IDP jointly with their
       supervisor.”

       “Preparing an IDP documents that a conversation about development needs was
       held between the supervisor and employee. Failure to prepare an IDP means that
       your training needs are not identified and possibly would not be funded as the
       supervisor cannot plan or budget for the learning activities. Additionally, non-
       participation will not be beneficial to the employee's continuing development and
       career advancement.”

   “It is important that you keep your IDP up-to-date.”

The video and the instructions address how an IDP should be developed. The video
instructs supervisors to periodically review the development activities and to consider
conducting such a review concurrent with performance evaluation meetings. It further
instructs employees to update their IDPs quarterly. With this information and an
electronic version of the form on ConnectED, the IDP seems to be easy to access, flexible
enough to address a wide range of employees’ developmental needs, and easy to use.

Still, as OIG notes, IDP participation is low. OIG’s draft memo mentions that 23 percent
of employees had IDPs in place when GPAS was in use. HRS reports that, in October
2003, it surveyed principal offices to determine IDP usage. Eighteen of 20 principal
offices responded, indicating that 19 percent of employees had an IDP. HRS advises that
these more recent data were not available when its staff was interviewed for this
inspection.

As OIG is aware, when HRS first undertook the revitalization of the IDP process, staff
explored the possibility of instating a mandatory IDP policy. However, at
implementation, participation in the IDP process continued to be voluntary as agreed
upon with the Union.




                                           7
It is disappointing but probably not surprising that last year’s communication and training
efforts did not increase IDP use. An IDP process has been in place for some time and
only a fraction of staff members choose to participate. Stronger motivation would be
provided if the IDP was mandatory or if participation in developmental activities resulted
in promotions or pay increases. However, requiring IDPs or promising such rewards for
training are not consistent with personnel policies and union agreements.

Response to recommendations

The Executive Management Team (EMT) should direct OM to revisit the IDP Program to
determine if current training adequately meets customer needs.

It is likely that the lack of impact of last year’s IDP training is related more to the prevailing
attitudes about IDPs and developmental opportunities than to the IDP training itself. Therefore,
we suggest that the OIG recommendation be worded so that OM can respond with a strategy to
encourage employee participation in training that is integrated with an overall plan to improve
skill development opportunities at ED. Focusing on the participation in the IDP process and the
IDP training is probably not going to have much of an impact on increasing participation in
developmental activities or employee skill levels.

HRS is developing an Employee Skills Inventory System (ESIS) that will include an employee
self-assessment tool linked to competencies and an electronic IDP. Like IDP participation, use of
ESIS will be voluntary. The Assistant Secretary for Management intends to present information
on the ESIS and IDP systems to the EMT. HRS is developing a communication and marketing
strategy to inform managers and employees about ESIS.

OM should complete efforts to establish a tracking system that will help management better
understand what training is required for employees.

HRS intends to complete the tracking system to provide information on skill gaps and the types of
training that employees have requested on IDPs.

OM should conduct an analysis to determine and understand the barriers from the vantage point
of managers and employees to the effective use of this program (e.g., the insufficiency of training
funds; the inflexibility of the current system).

The implementation of the HRS plan for the ESIS and integrated IDPs is a new strategy for IDPs.
OM plans to investigate the barriers to participation in IDPs and other components of ESIS at an
appropriate time following the implementation of the new approach. HRS staff will solicit
feedback on barriers to using IDPs and incorporate what they learn in future training and
communications. Such follow-up will be part of a single plan that addresses this and the first
recommendation. Whether funding for training is a barrier to employee skill development is a
separate issue that is not within the scope of the ESIS-related work HRS has planned.




                                             8
